                                                        NATIONALSCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: Al1040031                                                                        Page 1 of 1



                 We reviewed the financial records of an NSF award 1 in response to concerns about the
          administration of the funds. The performing institution2 was a newly-formed, small independent
          company. At the time of the award the independent company lacked the administrative infrastructure
          and non-profit status to accept the award itself and arranged for a nearby university research
          corporation3 to accept the award on its behalf. The university corporation provided the
          administrative support for the award.

                  While our review of the records identified some significant reallocations of funds among
          budget categories, the evidence did not indicate that they had resulted from fraud or other improper
          actions. Rather the reallocations appeared to reflect changes in award personnel with the NSF
          program officer's awareness. There was no evidence to suggest that the university research
          corporation had acted improperly in its administration of the funds.

                    Accordingly, this case is closed.




NSF 01G Form 2 (11/02)
